Case: 19-60069

Document: 00515370195

Page: 1

Date Filed: 04/02/2020

APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
United States Court of Appeals
FOR THE FIFTH CIRCUIT
Fifth Circuit

FILED
No. 19-60069

April 2, 2020
Lyle W. Cayce
Clerk

INDIGO WILLIAMS, on behalf of her minor child J.E.; DOROTHY
HAYMER, on behalf of her minor child, D.S.; PRECIOUS HUGHES, on
behalf of her minor child, A.H.; SARDE GRAHAM, on behalf of her minor
child, S.T.,
Plaintiffs - Appellants
v.
TATE REEVES, in his official capacity as Governor of Mississippi; PHILIP
GUNN, in his official capacity as Speaker of the Mississippi House of
Representatives; TATE REEVES, in his official capacity as Lieutenant
Governor of Mississippi; DELBERT HOSEMANN, in his official capacity as
Secretary of State of Mississippi; CAREY M. WRIGHT, in her official capacity
as State Superintendent of Education and Executive Secretary of MS State
Board of Education; ROSEMARY AULTMAN, in her official capacity as
Chair of the Mississippi State Board of Education; JASON DEAN, in his
official capacity as Member of the Mississippi State Board of Education;
BUDDY BAILEY, in his official capacity as Member of the Mississippi State
Board of Education; KAMI BUMGARNER, in her official capacity as Member
of the Mississippi State Board of Education; KAREN ELAM, in her official
capacity as Member of the Mississippi State Board of Education; JOHNNY
FRANKLIN, in his official capacity as Member of the Mississippi State Board
of Education; WILLIAM HAROLD JONES, in his official capacity as Member
of the Mississippi State Board of Education; JOHN KELLY, in his official
capacity as Member of the Mississippi State Board of Education; CHARLES
MCCLELLAND, in his official capacity as Member of the Mississippi State
Board of Education,
Defendants - Appellees

(1a)

Case: 19-60069

Document: 00515370195

Page: 2

Date Filed: 04/02/2020

2a

Appeal from the United States District Court
for the Southern District of Mississippi
Before JOLLY, GRAVES, and HIGGINSON, Circuit Judges.
STEPHEN A. HIGGINSON, Circuit Judge:
Five years after the end of the Civil War, the Mississippi Readmission
Act of 1870 reseated Mississippi’s representatives in Congress, formally
restoring Mississippi’s rights as a member of the Union. By the plain terms of
the Act, the State’s readmission to Congress was subject to several
“fundamental conditions,” including a restriction prohibiting the State from
“amend[ing] or chang[ing]” its Constitution in such a way that it “deprive[s]
any citizen or class of citizens of the United States of the school rights and
privileges secured by the constitution of said State.” 16 Stat. 67 (1870).
The plaintiffs in this lawsuit are low-income African-American women
whose children attend public schools in Mississippi. They filed suit against
multiple state officials in 2017, alleging that the current version of the
Mississippi Constitution violates the “school rights and privileges” condition of
the Mississippi Readmission Act. The district court held that plaintiffs’ suit
was barred by the Eleventh Amendment and dismissed the case. Though we
agree that a portion of the relief plaintiffs seek is prohibited by the Eleventh
Amendment, we hold that the lawsuit also partially seeks relief that satisfies
the Ex parte Young exception to sovereign immunity. Accordingly, we AFFIRM
in part and VACATE and REMAND in part.
I.
When

the

Confederate

states

seceded

from

the

Union,

their

congressional seats became vacant, leaving them without representation in the
Senate and the House of Representatives. See Joint Committee on

Case: 19-60069

Document: 00515370195

Page: 3

Date Filed: 04/02/2020

3a
Reconstruction, 39th Cong., 1st Sess., 1866 S. Rept. 112, x–xxi. In order to
regain representation in Congress at the end of the war, the former
Confederate states were required to adopt a Constitution that guaranteed a
republican form of government to all state residents. 14 Stat. 429 (1867).
Mississippi adopted a new Constitution on May 15, 1868, which was
subsequently ratified on December 1, 1869 (the “1868 Constitution”). See Miss.
Const. of 1868. Article Eight of the 1868 Constitution contained a series of
provisions related to education and the establishment and maintenance of
schools in the State. Section 1 provided as follows:
As the stability of a republican form of government depends mainly
upon the intelligence and virtue of the people, it shall be the duty
of the Legislature to encourage, by all suitable means, the
promotion of intellectual, scientific, moral, and agricultural
improvement, by establishing a uniform system of free public
schools, by taxation or otherwise, for all children between the ages
of five and twenty-one years, and shall, as soon as practicable,
establish schools of higher grade.
Id., art. VIII § 1.
Shortly after the 1868 Constitution was ratified, Congress enacted the
Mississippi Readmission Act, which declared that the State was now “entitled
to representation in the Congress of the United States.” 16 Stat. 67, 68 (1870).
Despite this broad proclamation, Congress conditioned Mississippi’s newlyrestored rights on three “fundamental” restrictions:
First, That the constitution of Mississippi shall never be so
amended or changed as to deprive any citizen or class of citizens of
the United States of the right to vote who are entitled to vote . . . .
Second, That it shall never be lawful for the said State to deprive
any citizen of the United States, on account of his race, color, or
previous condition of servitude, of the right to hold office . . . .
Third, That the constitution of Mississippi shall never be so
amended or changed as to deprive any citizen or class of citizens of

Case: 19-60069

Document: 00515370195

Page: 4

Date Filed: 04/02/2020

4a
the United States of the school rights and privileges secured by the
constitution of said State.
Id. Since 1868, the Mississippi Constitution’s education clause has been
amended four times: in 1890, 1934, 1960, and, most recently, in 1987. The
current version of the Constitution contains the following education clause,
codified in Section 201 of Article 8:
The Legislature shall, by general law, provide for the
establishment, maintenance and support of free public schools
upon such conditions and limitations as the Legislature may
prescribe.
Miss. Const., art. VIII § 201.
Plaintiffs argue that Section 201, as most recently amended in 1987,
violates the “school rights and privileges” condition of the Mississippi
Readmission Act. They highlight one specific difference between the 1868 and
1987 education clauses: While the 1868 version of the education clause
required the Legislature to establish “a uniform system of free public schools,”
the 1987 version has no reference to “uniform[ity],” mandating only that the
Legislature provide for the establishment of a system of “free public schools.” 1
Plaintiffs allege that the removal of the uniformity clause has caused
significant disparities in the educational resources, opportunities, and
outcomes afforded to children in Mississippi based on their race and the race
of their classmates. They assert that the schools attended by plaintiffs’
children—Raines

Elementary

and

Webster

Street

Elementary—“are

emblematic” of the problems caused by the lack of a uniformity guarantee. The
student body at both schools is over 95% African American, and over 95% of all

Plaintiffs identify other differences between the two education clauses as well,
including the elimination of “an obligation for the Legislature to ‘encourage’ the promotion of
public education ‘by all suitable means’” and the elimination of the duty “to establish a core
curriculum of ‘intellectual, scientific, moral, and agricultural improvement.’” Throughout
their briefing, however, they focus primarily on the absence of the uniformity guarantee.
1

Case: 19-60069

Document: 00515370195

Page: 5

Date Filed: 04/02/2020

5a
students are eligible to receive free-or-reduced-price lunch, an indicator of
poverty. Fewer than 11% of the students at these schools are proficient in
reading and math, and the schools are currently rated “D” by the Mississippi
Department of Education. In contrast, plaintiffs point to three “A”-rated
schools—in Madison County, DeSoto County, and Gulfport—where the student
populations are predominantly white and higher-income and over 65% of
students are proficient in reading and math.
These disparities extend well beyond academic performance. Plaintiffs
allege that their children attend schools where “[t]he ceilings are covered in
wet spots, . . . the paint is chipping off the walls,” students are taught by
inexperienced teachers, and extracurricular activities are limited or nonexistent. At schools that are predominantly white, children benefit from
experienced teachers, low student-teacher ratios, and extensive resources,
including “an iPad e-Reader library,” musical programming, and robust
physical education.
According to plaintiffs, Mississippi’s removal of the word “uniform” from
its Constitution resulted in a violation of the Readmission Act that has caused
them to suffer a number of injuries, including illiteracy, a diminished
likelihood of high school graduation, low rates of college attendance and college
completion, and an increased likelihood of future poverty. In their first
complaint, filed in May 2017, they sought a three-part declaratory judgment
against fourteen state officials—all of whom play a role in managing and
overseeing educational services in Mississippi. Defendants moved to dismiss
under Federal Rule of Civil Procedure 12(b)(1) and (b)(6). The district court
granted defendants’ motion for dismissal under 12(b)(1), holding that
plaintiffs’ complaint was barred by sovereign immunity. Although plaintiffs
sued state officials rather than Mississippi itself, the court concluded that the
relief plaintiffs seek would impermissibly “result in the issuing of an order that

Case: 19-60069

Document: 00515370195

Page: 6

Date Filed: 04/02/2020

6a
would, and could, operate only against the State.” The district court also held
that plaintiffs’ claim for declaratory relief was not covered by the Ex parte
Young exception to the Eleventh Amendment because it sought to “rectify prior
violations of the Mississippi Readmission Act” rather than prospectively
dictate future conduct.
Plaintiffs timely moved for reconsideration of the district court’s order.
The district court denied the motion on the merits, but amended the judgment
to reflect the fact that the dismissal was without prejudice—a mandatory
condition for a dismissal under Federal Rule of Civil Procedure 12(b)(1). See
Warnock v. Pecos County, 88 F.3d 341, 343 (5th Cir. 1996) (“Because sovereign
immunity deprives the court of jurisdiction, . . . claims barred by sovereign
immunity can be dismissed only under Rule 12(b)(1) and not with prejudice.”).
On appeal, plaintiffs largely abandon the relief requested in their original
complaint, relying instead on the proposed amended complaint attached to
their motion for reconsideration. In that complaint, plaintiffs request a
“prospective declaratory judgment” that makes two distinct findings: first,
“that Section 201 of the Mississippi Constitution is violating the Readmission
Act,” and second, “that the requirements of Article VIII, Section 1 of the
Constitution of 1868 remain legally binding on the Defendants, their
employees, their agents, and their successors.” 2
This appeal requires us to consider the “substance rather than . . . the
form of the relief” plaintiffs seek, identifying the often “indistinct” line between
permissible and prohibited claims under the Eleventh Amendment. See
Papasan v. Allain, 478 U.S. 265, 278–79 (1986). As we explain below, this

Plaintiffs initially sought a third declaration that the “1987, 1960, 1934, and 1890
versions of Section 201 were void ab initio.” They removed this request from their amended
complaint and acknowledge on appeal that the remaining two parts of their requested
declaration “would suffice for present purposes.”
2

Case: 19-60069

Document: 00515370195

Page: 7

Date Filed: 04/02/2020

7a
careful analysis leads us to a split conclusion on plaintiffs’ request for a twopart declaratory judgment: while the first part of their requested declaration
seeks prospective relief that is permissible under Ex parte Young, the second
part seeks a declaration of state law and is therefore barred by the Supreme
Court’s decision in Pennhurst State School & Hospital v. Halderman, 465 U.S.
89 (1984).
II.
We review a district court’s dismissal under Federal Rule of Civil
Procedure 12(b)(1) de novo. AT&T Commc’ns v. BellSouth Telecomms. Inc., 238
F.3d 636, 643 (5th Cir. 2001) (citations omitted). In conducting this analysis,
we “take the well-pled factual allegations of the complaint as true and view
them in the light most favorable to the plaintiff.” Lane v. Halliburton, 529 F.3d
548, 557 (5th Cir. 2008). A dismissal for lack of jurisdiction will not be affirmed
unless “it appears certain that the plaintiff cannot prove any set of facts in
support of his claim that would entitle plaintiff to relief.” Gilbert v. Donahoe,
751 F.3d 303, 307 (5th Cir. 2014).
III.
The district court dismissed the complaint because it concluded that
plaintiffs’ claims were barred by the Eleventh Amendment. On appeal, the
state officials defend the district court’s judgment while also making several
alternative arguments in support of affirmance, contending that plaintiffs lack
standing, the suit is barred by the political question doctrine, and there is no
private right of action under the Mississippi Readmission Act. These
arguments were raised in defendants’ briefing before the district court, but
they were not addressed in the district court’s order. Though “[a] successful
party in the District Court may sustain its judgment on any ground that finds
support in the record,” Jaffke v. Dunham, 352 U.S. 280, 281 (1957), the decision
whether to consider an argument for the first time on appeal is “one left

Case: 19-60069

Document: 00515370195

Page: 8

Date Filed: 04/02/2020

8a
primarily to the discretion of the courts of appeals,” Singleton v. Wulff, 428
U.S. 106, 121 (1976).
We conclude that there are no “special circumstances” that would justify
review of these issues at this stage of the litigation, Man Roland, Inc. v. Kreitz
Motor Express, 438 F.3d 476, 483 (5th Cir. 2006), and we therefore remand so
that the district court may reach them in the first instance. We thus confine
the remainder of our analysis to the Eleventh Amendment question. We
express no opinion on the merits of this lawsuit or defendants’ alternative
jurisdictional arguments. See PDK Labs. Inc. v. U.S. D.E.A., 362 F.3d 786, 799
(D.C. Cir. 2004) (“[T]he cardinal principle of judicial restraint [is] if it is not
necessary to decide more, it is necessary not to decide more.” (Roberts, J.,
concurring)).
A.
As a sovereign entity, a state may not be sued without its consent. The
Eleventh Amendment, which protects the states’ sovereign immunity,
“deprives a federal court of jurisdiction to hear a suit against a state.” Warnock,
88 F.3d at 343 (citing Pennhurst, 465 U.S. at 100). Read literally, the text of
the Eleventh Amendment prevents only non-citizens of a state from suing that
state. U.S. Const. amend. XI. Since Hans v. Louisiana, 134 U.S. 1, 10–11
(1890), however, courts have understood that the Amendment provides
protections beyond its text, shielding states from suits brought by their own
citizens as well as citizens of other states. 3 See Va. Office for Prot. & Advocacy

Because this broad reading of the Eleventh Amendment is not supported by its text,
we have dubbed “Eleventh Amendment immunity” a “misnomer . . . [since] that immunity is
really an aspect of the Supreme Court’s concept of state sovereign immunity and is neither
derived from nor limited by the Eleventh Amendment.” Meyers ex. rel. Benzing v. Texas, 410
F.3d 236, 240–41 (5th Cir. 2005) (citing Alden v. Maine, 527 U.S. 706, 712–13 (1999)).
“Nevertheless, the term ‘Eleventh Amendment immunity’ has been used loosely and
interchangeably with ‘state sovereign immunity’ to refer to a state’s immunity from suit
without its consent in federal courts.” Id. (citing cases).
3

Case: 19-60069

Document: 00515370195

Page: 9

Date Filed: 04/02/2020

9a
v. Stewart, 563 U.S. 247, 253 (2011) (VOPA). The doctrine of sovereign
immunity is derived from the fundamental principle that “it is inherent in the
nature of sovereignty not to be amenable to the suit of an individual without
[the sovereign’s] consent.” Fla. Prepaid Postsecondary Educ. Expense Bd. v.
College Sav. Bank, 527 U.S. 627, 634 (1999) (quoting Seminole Tribe of Fla. v.
Florida, 517 U.S. 44, 54 (1996)).
Sovereign immunity is not limitless, and this case involves an important
caveat—the Ex parte Young exception. Under Ex parte Young, 209 U.S. 123,
167–68 (1908), a litigant may sue a state official in his official capacity if the
suit seeks prospective relief to redress an ongoing violation of federal law. Id.
at 167–68; Air Evac EMS v. Tex., Dep’t of Ins., Div. of Workers’ Comp., 851 F.3d
507, 519 (5th Cir. 2017). The exception rests on a legal fiction, the premise that
a state official is “not the State for sovereign-immunity purposes” when “a
federal court commands [him or her] to do nothing more than refrain from
violating federal law.” VOPA, 563 U.S. at 255. Though an Ex parte Young suit
has an “obvious impact on the State itself,” it is an essential mechanism for
affirming the supremacy of federal law. 4 Pennhurst, 465 U.S. at 104–05; see
also VOPA, 563 U.S. at 254–55 (observing that the Ex parte Young exception
“has existed alongside our sovereign-immunity jurisprudence for more than a
century, accepted as necessary to permit the federal courts to vindicate federal
rights.” (internal quotation marks omitted)).

As a general rule, “a suit against state officials that is in fact a suit against a State
is barred regardless of whether it seeks damages or injunctive relief.” Pennhurst, 465 U.S. at
102. But Ex parte Young is “an important exception to th[at] general rule.” Id. Thus, if a case
meets the requirements of Ex parte Young, it is permissible—despite the fact that, in reality,
a judgment in the case would ultimately operate against the state. Id.; Puerto Rico Aqueduct
& Sewer Auth. v. Metcalf & Eddy, Inc., 506 U.S. 139, 146 (1993) (“Young and its progeny
render the [Eleventh] Amendment wholly inapplicable to a certain class of suits.”).
4

Case: 19-60069

Document: 00515370195

Page: 10

Date Filed: 04/02/2020

10a
There are three basic elements of an Ex parte Young lawsuit. The suit
must: (1) be brought against state officers who are acting in their official
capacities; (2) seek prospective relief to redress ongoing conduct; and (3) allege
a violation of federal, not state, law. NiGen Biotech, L.L.C. v. Paxton, 804 F.3d
389, 394 (5th Cir. 2015). An Ex parte Young suit must also seek equitable
relief—relief that is “declaratory or injunctive in nature and prospective in
effect.” Aguilar v. Tex. Dep’t of Criminal Justice, 160 F.3d 1052, 1054 (5th Cir.
1998); see also Lipscomb v. Columbus Mun. Separate Sch. Dist., 269 F.3d 494,
500–01 (5th Cir. 2001) (holding that Ex parte Young applied to a suit for
declaratory relief because the “requested relief is indistinguishable from a suit
to enjoin the [state official] from declining to [enforce the law]”). “[T]he inquiry
into whether suit lies under Ex parte Young does not include an analysis of the
merits of the claim.” Verizon Md., Inc. v. Pub. Serv. Comm’n of Md., 535 U.S.
635, 646 (2002). 5 Therefore, in order to determine whether a suit complies with
the requirements of Ex parte Young, the “court need only conduct a
‘straightforward inquiry into whether [the] complaint alleges an ongoing
violation of federal law and seeks relief properly characterized as prospective.’”
Id. (quoting Idaho v. Coeur d’Alene Tribe of Idaho, 521 U.S. 261, 296 (1997)
(O’Connor, J., concurring in part and concurring in judgment)).
Plaintiffs clearly comply with the first requirement for an Ex parte
Young suit: the named defendants are state officers, and they are sued in their
official capacities. Plaintiffs’ two-part request for a declaratory judgment
requires a more nuanced analysis of the “prospective” and “federal law” prongs

Defendants argue that the availability of a private right of action to enforce the
Mississippi Readmission Act is a question that goes “hand in hand” with the sovereign
immunity question. In McCarthy ex rel. Travis v. Hawkins, 381 F.3d 407 (5th Cir. 2004),
however, we held that there is “no support” for the notion that “a court must determine the
validity of a plaintiff’s cause of action in the course of deciding whether an Ex parte Young
suit can proceed in the face of a state’s Eleventh Amendment defense.” Id. at 415.
5

Case: 19-60069

Document: 00515370195

Page: 11

Date Filed: 04/02/2020

11a
of an Ex parte Young lawsuit. Two Supreme Court cases primarily guide our
inquiry: Papasan v. Allain and Pennhurst State School & Hospital v.
Halderman.
i.
Defendants argue that plaintiffs’ lawsuit seeks retroactive relief that
cannot be pursued under Ex parte Young. The Ex parte Young exception is
“focused on cases in which a violation of federal law by a state official is ongoing
as opposed to cases in which federal law has been violated at one time or over
a period of time in the past.” Papasan, 478 U.S. at 277–78. This limitation is
consistent with the purpose of the Ex parte Young exception: While “‘[r]emedies
designed to end a continuing violation of federal law are necessary to vindicate
the federal interest in assuring the supremacy of that law,” id. at 278 (quoting
Green v. Mansour, 474 U.S. 64, 68 (1985)), the same rationale does not apply
to remediation of a prior violation of federal law. Thus, to comply with the
dictates of Ex parte Young, plaintiffs’ lawsuit must allege that the defendants’
actions are currently violating federal law. See NiGen Biotech, 804 F.3d at 394
(citing Green, 474 U.S. at 71–73).
According to defendants, the first part of plaintiffs’ two-part requested
declaration—a finding “that Section 201 of the Mississippi Constitution is
violating the Readmission Act”—fails this test. Defendants characterize this
portion of plaintiffs’ requested relief as a challenge to the Mississippi
legislature’s actions to amend the Constitution’s education clause—an act that
occurred thirty-two years ago, and which is not expected to occur again in the
imminent future. Defendants also note that the Mississippi Readmission Act
itself places limitations on the amendment of the Constitution, not on the text
of the laws that result from that amendment process. See 16 Stat. 68
(prohibiting the State from “amend[ing] or chang[ing]” its Constitution if the
amendment has the particular effect of “depriv[ing] any citizen or class of

Case: 19-60069

Document: 00515370195

Page: 12

Date Filed: 04/02/2020

12a
citizens of the United States of the school rights and privileges secured by the
constitution of said State”). They therefore argue that plaintiffs unlawfully
seek retroactive relief—a declaration that the constitutional amendment
violated federal law at the time that it occurred.
We disagree with this characterization of plaintiffs’ requested relief. The
Supreme Court’s decision in Papasan is particularly instructive, compelling
the conclusion that this portion of plaintiffs’ requested relief is permissible
under Ex parte Young. In Papasan, a group of Mississippi public-school
children alleged that the State had breached its obligation to hold federallygranted land in a perpetual trust for the benefit of schoolchildren in the State’s
northern twenty-three counties—an area previously held by the Chickasaw
Indian Nation. 478 U.S. at 272–73. Mississippi sold the land in 1856, investing
the proceeds in railroads that were later destroyed. Id. at 272. The Papasan
plaintiffs alleged that those decisions amounted to a breach of trust and an
equal protection violation. Id. at 274.
The Court allowed plaintiffs to pursue their equal-protection claim but
rejected the second claim for a breach of trust. Id. at 280–82. Though phrased
as a claim for equitable relief, the breach-of-trust claim asked the State to
provide monetary relief for the State’s imprudent investment activities, a harm
that occurred when the State sold the land over 100 years before the plaintiffs
brought their claims. Id. at 280–81. Because the plaintiffs sought to remedy
the breach itself, any relief linked to the past breach would have been
retrospective, not prospective. Id. In contrast, the Court held that the equalprotection claim was prospective and thus permitted that claim to go forward.
Id. at 281–82. Plaintiffs alleged that the State’s past actions had present and
persistent consequences, denying them “their rights to an interest in a
minimally adequate level of education, or reasonable opportunity therefor.” Id.
at 282. The Court held that “[t]his alleged ongoing constitutional violation—

Case: 19-60069

Document: 00515370195

Page: 13

Date Filed: 04/02/2020

13a
the unequal distribution by the State of the benefits of the State’s school
lands—is precisely the type of continuing violation for which a remedy may
permissibly be fashioned under Young.” Id. Though “the current disparity
result[ed] directly from . . . actions in the past,” the “essence” of the claim
alleged a current and persisting disparity in the State’s distribution of funds.
Id.
Like the equal-protection claim in Papasan, plaintiffs’ claim that Section
201 currently violates the Mississippi Readmission Act seeks relief for an
ongoing violation. Plaintiffs argue that Mississippi schoolchildren today are
deprived of their school rights, and they allege that the current version of
Section 201—presently enforced and maintained by the defendants—is the
cause of that harm. Papasan instructs that the historical origins of the
continuing violation are not determinative of the viability of an Ex parte Young
suit. As long as the claim seeks prospective relief for ongoing harm, the fact
that a current violation can be traced to a past action does not bar relief under
Ex parte Young. Id. at 282. Plaintiffs must allege that “the defendant is
violating federal law, not simply that the defendant has done so” at some point
in the past, NiGen Biotech, 804 F.3d at 394. Once they meet that requirement,
however, the complaint’s straightforward, present-tense allegations “are
sufficient to demonstrate the ongoing nature of the alleged un[lawful] conduct.”
Id. at 395.
Plaintiffs’ allegations are sufficiently forward-looking, and thus
permissible under Papasan. They seek relief for what they allege to be
defendants’ ongoing violation of federal law—the enforcement of a state
constitutional provision that conflicts with the federal Readmission Act. This
is the type of relief permitted under Ex parte Young, which “rests on the need
to promote the vindication of federal rights.” Cox v. City of Dallas, 256 F.3d
281, 307 (5th Cir. 2001); Verizon, 535 U.S. at 645. Contrary to defendants’

Case: 19-60069

Document: 00515370195

Page: 14

Date Filed: 04/02/2020

14a
characterization, plaintiffs do not challenge the act of amending the
Mississippi Constitution; instead, they challenge the ongoing harm they
allegedly suffer as a result of its current text. An invalid law produces
consequences long after the date of its enactment—that is the very essence of
a legal dictate. “In discerning on which side of the line a particular case falls,
we look to the substance rather than to the form of the relief sought, and will
be guided by the policies underlying the decision in Ex parte Young.” In re Tejas
Testing Tech. One, 149 F.3d 1177, at *4 (5th Cir. 1998) (unpublished) (quoting
Papasan, 478 U.S. at 279) (holding that several of plaintiffs’ causes of action
sought, “at least on their face, prospective declaratory or injunctive relief for a
continuing violation of federal law,” and were therefore permissible under Ex
parte Young). Thus, because plaintiffs claim to be presently harmed by these
consequences, they may pursue prospective relief under Ex parte Young.
Defendants also argue that plaintiffs’ request for a declaration that
Section 201 conflicts with the Readmission Act impermissibly interferes with
“special sovereignty interests.” We do not find this argument persuasive.
Though the Supreme Court held in Coeur d’Alene that “special sovereignty
interests” may invalidate an otherwise appropriate Ex parte Young suit, that
case involved a lawsuit that was the “functional equivalent of a quiet title
action”—a specific infringement on state land rights. 521 U.S. at 281. We have
never before applied the holding of Coueur d’Alene in a context outside of the
unique land rights challenge in that case. See, e.g., Severance v. Patterson, 566
F.3d 490, 495 (5th Cir. 2009) (declining to extend the Coeur d’Alene limitation
to a case that did not involve a quiet title action and would thus not impede on
the state’s right to its own lands); Lipscomb, 269 F.3d at 502 (holding that a
lawsuit that did not seek to quiet title was not barred by Coeur d’Alene since it
would not result in relief that “strip[ped] the State of any of its jurisdiction or
authority to regulate the land”). To the contrary, “this circuit has rejected the

Case: 19-60069

Document: 00515370195

Page: 15

Date Filed: 04/02/2020

15a
idea that Coeur d’Alene affects the traditional application of Ex parte Young.”
AT&T Comm’ns, 238 F.3d at 648; Air Evac EMS, 851 F.3d at 517; see also 17
Charles Alan Wright & Arthur R. Miller, FEDERAL PRACTICE AND PROCEDURE
§ 4232 (3d ed. 2019) (“Lower courts have been reluctant to use the special state
sovereignty interest rationale to limit Ex Parte Young relief.”). Moreover,
plaintiffs’ requested relief would not interfere with the State’s general ability
to manage and operate its own schools. It would simply lead to a declaration
that one constitutional provision defining the terms of that management
structure violates federal law.
For these reasons, we conclude that the first part of plaintiffs’ two-part
requested relief—a declaration that Section 201 of the Mississippi Constitution
conflicts with the Readmission Act—may be pursued under Ex parte Young,
and we reverse the district court’s Eleventh Amendment-only dismissal as to
this part.
ii.
We reach the opposite conclusion with respect to the second part of
plaintiffs’ requested declaratory judgment: a finding that “the requirements of
Article VIII, Section 1 of the Constitution of 1868 remain legally binding on
the Defendants, their employees, their agents, and their successors.” Because
this request impermissibly asks a federal court to “instruct[] state officials on
how to conform their conduct to state law,” it is barred by the Supreme Court’s
decision in Pennhurst, 465 U.S. at 106.
In Pennhurst, the Court explained that the rule announced in Ex parte
Young cannot be used to redress a state official’s violation of state law. Id. The
plaintiffs in Pennhurst sought to invoke the federal court’s supplemental
jurisdiction to bring a claim under a Pennsylvania state law. Id. at 92. The
Court found that this practice did not comply with the purpose or requirements
of an Ex parte Young suit. “A federal court’s grant of relief against state officials

Case: 19-60069

Document: 00515370195

Page: 16

Date Filed: 04/02/2020

16a
on the basis of state law, whether prospective or retroactive, does not vindicate
the supreme authority of federal law.” Id. at 106. “Such a result [would]
conflict[] directly with the principles of federalism that underlie the Eleventh
Amendment.” Id.
Plaintiffs’ first requested declaration—a judicial finding that Section 201
violates the Mississippi Readmission Act—will necessarily require the court to
determine the meaning of “school rights and privileges,” a term that will
require analysis of the 1868 Constitution. This judicial exercise, however, does
not run afoul of Pennhurst because it does not ask the court to compel
compliance with “state law qua state law.” Ibarra v. Tex. Emp’t Comm’n, 823
F.2d 873, 877 (5th Cir. 1987). Instead, it asks the court to interpret the
meaning of a federal law—the Mississippi Readmission Act—by reference to a
related state law. See World of Faith World Outreach Ctr. Church, Inc. v.
Morales, 986 F.2d 962, 965 (5th Cir. 1993) (“Under existing law, federal courts
must necessarily construe local law and administrative regulations to
ascertain if there is a[n] interest protected by [a federal statute].” (quoting
Patchette v. Nix, 952 F.2d 158, 162 (8th Cir. 1991))); Everett v. Schramm, 772
F.2d 1114, 1119 (3d Cir. 1985) (“[A]scertaining state law is a far cry from
compelling state officials to comply with it.”).
In contrast, the second part of plaintiffs’ claim asks the court to do
something more than merely “determine . . . what the [state] statute means.”
World of Faith, 986 F.2d at 966. It asks the court to identify which state law is
binding upon state officials, making a judicial declaration that a state law
enacted over 150 years ago remains valid and enforceable, despite many years
of amendments and alterations. Because the Ex parte Young exception “is not
a way to enforce state law through the back door,” Wozniak v. Adesida, 932
F.3d 1008, 1011 (7th Cir. 2019), Pennhurst requires us to hold that this is an
invalid basis for an Ex parte Young suit.

Case: 19-60069

Document: 00515370195

Page: 17

Date Filed: 04/02/2020

17a
Plaintiffs argue that the second part of their requested declaration is
permissible under Pennhurst because it merely asks the court to enforce a state
law that is incorporated within the federal Readmission Act. They cite cases in
which a federal law explicitly incorporated a particular provision of a state law
or otherwise transformed an individual state requirement into a binding
federal mandate. See Kapps v. Wing, 404 F.3d 105, 120 n.21 (2d Cir. 2005)
(compelling defendants to comply with state law because “compliance with
state law [was] required as a matter of federal law”); Ibarra, 823 F.2d at 877
(finding no Pennhurst violation where a Texas statute “expressly incorporates”
certain standards from a federal statute, “and indeed, provides that any change
in the [federal] standard is automatically incorporated into Texas law”);
Everett, 772 F.2d at 1119 (allowing a federal claim to proceed under Pennhurst
where the federal law required states to abide by standards of need provided
in state law). Likewise, plaintiffs cite cases where state laws required
compliance with a federal rule, transforming the state laws into federal
mandates that could be enforced without “run[ning] afoul of Pennhurst’s
admonition regarding state law claims.” Cox, 256 F.3d at 308.
Plaintiffs’ claim does not fit either of these situations. Plaintiffs sue
defendants under the Mississippi Readmission Act, which does not explicitly
incorporate any of the language, requirements, or provisions of the 1868
Constitution. Nor does the Readmission Act require Mississippi to abide
indefinitely by the 1868 Constitution’s education clause. Indeed, it explicitly
permits the State to amend its Constitution, placing only a general limitation
upon the State to retain the “school rights and privileges” that were protected
under the 1868 Constitution. The Readmission Act does not use the phrase
“uniformity” or any of the specific language contained in the 1868 education
clause. By asking a federal court to declare that all of these state requirements
remain binding and valid upon state officials, plaintiffs seek to import a

Case: 19-60069

Document: 00515370195

Page: 18

Date Filed: 04/02/2020

18a
specific “uniformity” requirement into the more general federal act. Yet while
the Readmission Act imposes an obligation for the State to continue to provide
the same educational rights that were protected in 1868, it does not
demonstrate that Congress intended to force Mississippi to retain fixed, 200year-old language in its education clause.
Other circuits have similarly held that the federal government’s
approval of a state law does not automatically transform that law into a federal
mandate. In Pennsylvania Federation of Sportsmen’s Clubs, Inc. v. Hess, 297
F.3d 310 (3d Cir. 2002), and Bragg v. West Virginia Coal Ass’n, 248 F.3d 275
(4th Cir. 2001), the plaintiffs sued to enforce federally-approved state mining
plans, arguing that the Surface Mining Control and Reclamation Act
(“SMCRA”) made those state plans enforceable by federal courts. The Third
and Fourth Circuits both held that these claims were barred by Pennhurst.
Hess, 297 F.3d at 323–30; Bragg, 248 F.3d at 296. Though the state plans had
been approved by the federal government, this approval did not mean that the
state plans had somehow been “incorporated or ‘codified’ into federal law.”
Hess, 297 F.3d at 326; Bragg, 248 F.3d at 297. As a result, the Bragg and Hess
courts held that a federal court could not order state officials to abide by their
own plans. Id. 6
Plaintiffs’ second request for relief is analogous to the impermissible
claims in Bragg and Hess. Plaintiffs ask the court to make a declaration about
state law, arguing that the Mississippi Constitution became enforceable
against the State in federal court when it was approved by Congress in the
Readmission Act. 7 Yet while a federal court can interpret the meaning of
The court in Hess allowed two of plaintiffs’ claims to move forward because those
claims alleged violations of specific federal, not state, regulations, which “ha[d] no
counterpart in state law.” Hess, 297 F.3d at 331.
7 The requested relief is not identical to Hess and Bragg in all respects. Plaintiffs ask
the court to identify binding state law, but they do not seek a declaration that state officials
6

Case: 19-60069

Document: 00515370195

Page: 19

Date Filed: 04/02/2020

19a
“school rights and privileges,” it cannot transform century-old state law into a
binding federal mandate. See Bragg, 248 F.3d at 297 (holding that a state’s
“dignity interest” in setting and enforcing its own law “does not fade into
oblivion merely because a State’s law is enacted to comport with a federal
invitation to regulate within certain parameters and with federal agency
approval”).
“[T]he determinative question [under Pennhurst] is not the relief
ordered, but whether the relief was ordered pursuant to state or federal law.”
Brown v. Ga. Dep’t of Revenue, 881 F.2d 1018, 1023 (11th Cir 1989). Because
plaintiffs’ second requested declaration seeks an order compelling state
officials to comply with a specific state law, we conclude that it is barred by
Pennhurst and is thus invalid under Ex parte Young.
IV.
For the foregoing reasons, the judgment of the district court is
AFFIRMED in part and VACATED and REMANDED in part.

have violated state law. We are not persuaded that this distinction is meaningful. As
defendants note, “the requested relief would first tell state officials what state law is, and
then have those officials conform their conduct to state law.” This would constitute a major
intrusion into state sovereignty, the primary justification for the Eleventh Amendment. The
Readmission Act did not strip the state of its power to amend the Constitution; instead, it
identified certain conditions that must guide the amendment process.

Case: 19-60069

Document: 00515663554

Page: 1

Date Filed: 12/07/2020

APPENDIX B

United States Court of Appeals
for the Fifth Circuit
No. 19-60069
INDIGO WILLIAMS, on behalf of her minor child J.E.;
DOROTHY HAYMER, on behalf of her minor child, D.S.;
PRECIOUS HUGHES, on behalf of her minor child, A.H.;
SARDE GRAHAM, on behalf of her minor child, S.T.,
Plaintiffs—Appellants,
versus
TATE REEVES, in his official capacity as Governor of
Mississippi; PHILIP GUNN, in his official capacity as
Speaker of the Mississippi House of Representatives;
TATE REEVES, in his official capacity as Lieutenant
Governor of Mississippi; DELBERT HOSEMANN, in his
official capacity as Secretary of State of Mississippi;
CAREY M. WRIGHT, in her official capacity as State
Superintendent of Education and Executive Secretary
of MS State Board of Education; ROSEMARY
AULTMAN, in her official capacity as Chair of the
Mississippi State Board of Education; JASON DEAN, in
his official capacity as Member of the Mississippi State
Board of Education; BUDDY BAILEY, in his official
capacity as Member of the Mississippi State Board of
Education; KAMI BUMGARNER, in her official capacity
as Member of the Mississippi State Board of Education;
KAREN ELAM, in her official capacity as Member of the
Mississippi State Board of Education; JOHNNY
FRANKLIN, in his official capacity as Member of the
Mississippi State Board of Education; WILLIAM
HAROLD JONES, in his official capacity as Member of

(20a)

Case: 19-60069

Document: 00515663554

Page: 2

Date Filed: 12/07/2020

21a

the Mississippi State Board of Education; JOHN KELLY,
in his official capacity as Member of the Mississippi
State Board of Education; CHARLES MCCLELLAND, in
his official capacity as Member of the Mississippi State
Board of Education,
Defendants—Appellees.
_
Appeal from the United States District Court
for the Southern District of Mississippi
USDC No. 3:17-CV-404
_
ON PETITION FOR REHEARING EN BANC
(Opinion April 2, 2020, 5 Cir.,
)

,

F.3d

Before JOLLY, GRAVES, and HIGGINSON, Circuit Judges.
Per Curiam:
The court having been polled at the request of one of its members,
and a majority of the judges who are in regular active service and not
disqualified not having voted in favor (Fed. R. App. P. 35 and 5th Circ. R. 35),
the petition for rehearing en banc is DENIED.
In the en banc poll, 8 judges voted in favor of rehearing (Judges
Jones, Smith, Elrod, Willett, Ho, Duncan, Oldham, and Wilson), and 9
judges voted against rehearing (Chief Judge Owen and Judges Stewart,
Dennis, Southwick, Haynes, Graves, Higginson, Costa, and Engelhardt).

Case: 19-60069

Document: 00515663554

Page: 3

Date Filed: 12/07/2020

22a
ENTERED FOR THE COURT:

___________________________
Stephen A. Higginson
United States Circuit Judge

Case: 19-60069

Document: 00515663554

No. 19-60069, Williams v. Reeves,

Page: 4

Date Filed: 12/07/2020

23a

EDITH H. JONES, Circuit Judge, joined by SMITH, ELROD, WILLETT,* HO,*

DUNCAN, OLDHAM, and WILSON, Circuit Judges, dissenting from the denial of
rehearing en banc

This strange case seeks a declaratory judgment that Mississippi’s 1868
Constitution, which satisfied the terms of the post-Civil War Readmission Act
of Congress, granted more educational rights to African-American children
than an amendment to the state’s Constitution in 1987.

The sought-for

judgment, in essence, would tell Mississippi what its state Constitution meant
then and means now and would pave the way for federal court orders to effect
a major restructuring of state school funding. Federal courts, however, have
no business interpreting and enforcing state law against state government.
Federalism, the principle of dual sovereignties, is a bedrock principle of our
Founding and a bulwark of individual liberty because it diffuses the exercise
of power by governments.

Not only the Eleventh Amendment, but “the

fundamental rule [of dual sovereignty] of which the Amendment is but an
exemplification,” 1 protects states from abuse by federal courts. The Supreme
Court expressed the basic roadblock to maintaining this suit in federal court:
A federal court’s grant of relief against state officials on the basis
of state law, whether prospective or retroactive, does not vindicate
the supreme authority of federal law. On the contrary, it is
difficult to think of a greater intrusion on state sovereignty than
when a federal court instructs state officials on how to conform
their conduct to state law. Such a result conflicts directly with
the principles of federalism that underlie the Eleventh
Amendment.
Pennhurst State School
104 S. Ct. 900, 911 (1984).

&

Hosp.

v.

Halderman,

465 U.S. 89,

106,

Pennhurst clearly forbids federal courts from adjudicating claims of state
law against nonconsenting sovereign states in federal court. The panel here
* Judges Willett and Ho concur only in Parts I and IIB.
1 Ex Parte State of New York, 256 U.S. 490, 497, 41 S. Ct. 588, 589 (1921).

Case: 19-60069

Document: 00515663554

Page: 5

Date Filed: 12/07/2020

24a

nonetheless issued a Janus-faced opinion, finding one of the plaintiffs’ claims
barred according to Pennhurst, while permitting another, virtually identical
claim, to move forward in the district court.
This court refused to order en banc reconsideration.

I respectfully

dissent. State sovereign immunity should bar this suit in its entirety based
on Pennhurst. Moreover, such sovereign immunity includes immunity from
suit, not simply adverse judgments; we should alternatively have dismissed
the suit because the Mississippi Readmission Act created no implied private
right of action on behalf of these plaintiffs.
I. Background
Following the Civil War, Mississippi’s readmission to full statehood
required it to adopt a constitutional guarantee of a republican form of
government to all state residents. 2 Mississippi adopted a constitution in 1868
that did just that. Article Eight of Mississippi’s 1868 Constitution contained
a series of provisions related to education and the establishment and
maintenance of public schools. Section 1 of Article Eight, relevant to this case,
provides:
As the stability of a republican form of government depends mainly
upon the intelligence and virtue of the people, it shall be the duty
of the Legislature to encourage, by all suitable means, the
promotion of intellectual, scientific, moral, and agricultural
improvement, by establishing a uniform system of free public
schools, by taxation or otherwise, for all children between the ages
of five and twenty-one years, and shall, as soon as practicable,
establish schools of higher grades.
MISS. CONST. of 1868, art. VIII § 1 (emphasis added).
Shortly after the 1868 Constitution was ratified, Congress enacted the
Mississippi Readmission Act, which premised the state’s restored rights on
certain “fundamental conditions,” including:

“That the constitution of

Ten states formerly in rebellion were readmitted to Congress pursuant to similar
federal laws.
2

Case: 19-60069

Document: 00515663554

Page: 6

Date Filed: 12/07/2020

25a

Mississippi shall never be so amended or changed as to deprive any citizen or
class of citizens of the United States of the school rights and privileges secured
by the constitution of said State.” 16 Stat. 67, 68 (1870) (emphasis added). 3
Since 1868, the quoted state constitutional provision has been amended four
times. The current version, adopted in 1987, states: “The Legislature shall,
by general law, provide for the establishment, maintenance and support of free
public schools upon such conditions and limitations as the Legislature may
prescribe.” MISS. CONST., art. VIII § 201.
The plaintiffs comprise a group of low-income African-American women
whose children attend Mississippi public schools.

They allege “that the

current version of the Mississippi Constitution violates the ‘school rights and
privileges’ condition of the Mississippi Readmission Act.” Williams v. Reeves,
954 F.3d 729, 732 (5th Cir. 2020).

“They highlight one specific difference

between the 1868 and 1987 education clauses: While the 1868 version of the
education clause required the Legislature to establish ‘a uniform system of free
public schools,’ the 1987 version has no reference to ‘uniform[ity],’ mandating
only that the Legislature provide for the establishment of a system of ‘free
public schools.’”

Id. at 733 (emphasis and alteration in original).

The

plaintiffs contend that the removal of the word “uniform” from Mississippi’s
Constitution violates the Readmission Act, resulting in disuniform schools and
a number of injuries, including illiteracy, a diminished likelihood of high school
graduation, low rates of college attendance, and an increased likelihood of
future poverty.
The named defendants, sued in their official capacities, include
Mississippi’s Governor, Lieutenant Governor, Speaker of the House, Secretary
of State, and the entire State Board of Education. They moved to dismiss
under Federal Rules of Civil Procedure 12(b)(1) and 12(b)(6).

The district

Identical language appears regarding the readmission of Virginia and Texas,
consequently, the same case could be filed in those states if plaintiffs prevail here.
3

Case: 19-60069

Document: 00515663554

Page: 7

Date Filed: 12/07/2020

26a

court granted the defendants’ 12(b)(1) motion, holding that it lacked
jurisdiction based on Eleventh Amendment sovereign immunity.

On

reconsideration, the court dismissed without prejudice.
On appeal, the plaintiffs defended their “request [for] a ‘prospective
declaratory judgment’ that makes two distinct findings: first ‘that Section 201
of the Mississippi Constitution is violating the Readmission Act,’ and second,
‘that the requirements of Article VIII, Section 1 of the Constitution of 1868
remain legally binding on the [d]efendants, their employees, their agents, and
their successors.’”

Id. at 734.

The panel affirmed the district court’s

dismissal concerning the second of plaintiffs’ requests because it “seeks a
declaration of state law and is therefore barred by the Supreme Court’s decision
in Pennhurst . . . .” Id. (emphasis in original).
Contrarily, the panel reasoned that the plaintiffs’ first request for
declaratory relief fits within Ex parte Young’s exception to sovereign immunity
for cases in which a state officer is charged with acting in violation of federal
law.

Id. at 735–36.

Plaintiffs allege that Section 201 of the current

Mississippi constitution violates federal law, specifically, the Mississippi
Readmission Act’s confirmation of “school rights and privileges.” That the
“school rights and privileges” language depends on the state’s 1868
constitution, the panel declared, did not potentially “run afoul of Pennhurst
because it does not ask the court to compel compliance with ‘state law qua state
law,’” the panel explained. Id. at 740 (quoting Ibarra v. Tex. Emp’t Comm’n,
823 F.2d 873, 877 (5th Cir. 1987)). “Instead, it asks the court to interpret the
meaning of a federal law—the Mississippi Readmission Act—by reference to a
related state law.” Id. (emphasis in original).
II. Analysis
A. State Sovereign Immunity
Respectfully, there is no way to avoid the conclusion that the panel’s
decision on the first request for declaratory relief requires the federal court to

Case: 19-60069

Document: 00515663554

Page: 8

Date Filed: 12/07/2020

27a

impermissibly adjudicate a question of state law. The first decision the court
must make on remand pits the meaning of “a uniform system” of public schools
in Mississippi’s 1868 constitution against “the establishment, maintenance
and support” of public schools enunciated in the state’s 1987 constitutional
amendment.

Only after finding that the provisions conflict and that the

newer provision is less protective of plaintiffs’ children than the 1868 provision
could a court conclude that the “school rights and privileges” referenced in the
federal Readmission Act have not been “secured by the constitution” of
Mississippi.
The doctrine of Ex parte Young constitutes an exception to the states’
constitutional immunity whereby a federal court has jurisdiction over a suit
against a state officer to enjoin an ongoing violation of federal law, even though
the state itself would be immune from suit in federal court. Pennhurst,
465 U.S. at 102–03, 104 S. Ct. at 909.

In preserving the delicate balance

between rights created under the Constitution and the states’ Eleventh
Amendment and sovereign right not to be hailed into federal court, “we must
ensure that the doctrine of sovereign immunity remains meaningful, while also
giving recognition to the need to prevent violations of federal law.” Idaho v.
Coeur d'Alene Tribe of Idaho, 521 U.S. 261, 269, 117 S. Ct. 2028, 2034 (1997).
Accordingly, the Supreme Court has carefully limited the application of Ex
parte Young to circumstances in which injunctive relief is necessary to “give[]
life to the Supremacy Clause.”

Green v. Mansour, 474 U.S. 64, 68,

106 S. Ct. 423, 426 (1985). One of the most important limitations is that Ex
parte Young does not apply where private parties seek relief amounting to a
federal court order instructing “state officials on how to conform their conduct
to state law.” Pennhurst, 465 U.S. at 106, 104 S. Ct. at 911. To determine
whether the Ex parte Young doctrine avoids an immunity bar, federal courts
conduct a “straightforward inquiry into whether [the] complaint alleges an
ongoing violation of federal law and seeks relief properly characterized as

Case: 19-60069

Document: 00515663554

Page: 9

Date Filed: 12/07/2020

28a

prospective.” Verizon Maryland, Inc. v. Public Serv. Comm’n. of Md.,
535 U.S. 635, 645, 122 S. Ct. 1753, 1760 (2002) (quoting Coeur d’Alene,
521 U.S. at 296, 117 U.S. at 2047 (O’Connor, J., concurring)).
As all these decisions indicate, the touchstone for applying Ex parte
Young is an allegation that federal law is being violated.

Without the

imperative of vindicating federal law, federal courts have no warrant to
adjudicate suits against nonconsenting states. What the plaintiffs seek in
this case is plainly an interpretation and enforcement of Mississippi law, which
is not a declaration cognizable through the Ex parte Young exception. The
panel mistook what is, in substance, a state law claim as a federal claim
interpreting the Readmission Act.
The Readmission Act specifies that the State shall not amend state law
so as to violate state law: “. . . the constitution of Mississippi shall never be so
amended or changed as to deprive any citizen or class of citizens . . . of the
school rights and privileges secured by the constitution of said State.”
16 Stat. 67, 68 (1870).

The plaintiffs can only prevail on their purported

federal claim if they persuade a court to find that Mississippi violated school
rights granted exclusively by its own 1868 Constitution when it amended its
Constitution in 1987.
The panel rejected plaintiffs’ claim that the Readmission Act
incorporated 1868 state constitutional law. Williams, 954 F.3d at 740. It
stated, correctly, that the Mississippi Readmission Act “does not explicitly
incorporate any of the language, requirements, or provisions of the 1868
Constitution.

Nor does the Readmission Act require Mississippi to abide

indefinitely by the 1868 Constitution’s education clause.”

Id.

Having

recognized these salient facts, it is a mystery how the panel could avoid the
conclusion that plaintiffs are not entitled to relief unless a federal court decides
an explicitly state law issue:

whether Section 201 of Mississippi’s 1890

Constitution, as amended in 1987, abrogated rights secured by Mississippi’s

Case: 19-60069

1868

Constitution. 4

Document: 00515663554

Page: 10

Date Filed: 12/07/2020

29a

The plaintiffs’ argument proves the point. They contend

that Section 201 is invalid because it “no longer contains a uniformity
guarantee.” But the uniformity guarantee is (or was) a right granted only by
state law. The Readmission Act says no more than this, as it references only
“the school rights and privileges secured by the Constitution of said State.”
16 Stat. 67, 68 (1870).

In the absence of the Readmission Act’s explicit

incorporation of state law or a prohibition on future amendments of the state
constitution, the only way for Section 201 to be declared invalid is to say it
abrogated the previous state constitutional provision. For a federal court to
adjudicate that proposition would violate the sovereignty and federalism
principles undergirding the Pennhurst decision.
Here, the plaintiffs are not asking the federal court merely to consult or
ascertain state law on the way to adjudicating a federal claim, but to
(1) interpret two state constitutional provisions, the 1868 uniformity
guarantee and Section 201; (2) determine whether they are compatible or in
conflict; and then (3) declare whether officers of state government are in

Many of these same concerns animate the separate doctrine of Pullman abstention.
See Harris County Com'rs Court v. Moore, 420 U.S. 77, 84 n.8, 95 S. Ct. 870, 876 n.8 (1975)
(“[W]here the challenged statute is part of an integrated scheme of related constitutional
provisions, statutes, and regulations, and where the scheme as a whole calls for clarifying
interpretation by the state courts, we have regularly required the district courts to abstain.”);
Reetz v. Bozanich, 397 U.S. 82, 87, 90 S. Ct. 788, 790 (1970) (“The Pullman doctrine was
based on the avoidance of needless friction between federal pronouncements and state
policies. The instant case is the classic case in that tradition, for here the nub of the whole
controversy may be the state constitution.” (internal quotation and citation omitted));
Railroad Commission of Tex. v. Pullman Co., 312 U.S. 496, 499, 61 S. Ct. 643, 645 (1941)
(“The last word on the meaning of [a Texas statute], and therefore the last word on the
statutory authority of the Railroad Commission in this case, belongs neither to us nor to the
district court but to the supreme court of Texas.”); see also 17A CHARLES ALAN WRIGHT &
ARTHUR R. MILLER, FEDERAL PRACTICE AND PROCEDURE § 4242 (3d ed. 2020) (“Pullman-type
abstention is based in large part on considerations of federalism, and the desire to preserve
harmonious federal-state relations.”); MARTIN A. SCHWARTZ, SECTION 1983 LITIGATION:
CLAIMS AND DEFENSES § 14.02 (4th ed. 2020) (“When there is lack of clarity in a state
constitutional provision that is unique in the sense that it has no counterpart in the federal
Constitution, invocation of Pullman abstention may be justified.”)
4

Case: 19-60069

Document: 00515663554

Page: 11

Date Filed: 12/07/2020

30a

violation of the state constitution. That is all the Readmission Act provides,
and that adjudication is quintessentially a task for Mississippi’s courts. 5
Further demonstrating the abuse of state sovereign immunity, it is plain
that, if successful, plaintiffs’ request for a declaratory judgment would surely
be followed by a plea for injunctive relief against the state defendants. The
only relief compatible with plaintiffs’ claim as to the Readmission Act would
order the defendants to comply with Article VIII, Section 1 of the 1868
constitution. As the panel understood (regarding plaintiffs’ claim for a direct
declaration of state law), such an order would run afoul of Pennhurst.
Williams, 954 F.3d at 741.

The affront to the state’s enforcement of its

constitution and management of its educational system is manifest.
What’s sauce for the goose is sauce for the gander.

The panel’s

conclusion that Pennhurst bars a direct declaration of state law must extend
to the declaration of alleged federal law that turns solely and exclusively on a
declaration of state law. The Readmission Act required Mississippi to enforce
“the school rights and privileges secured by the Constitution of said State.”
16 Stat. 67, 68 (1870). These “school rights” are rights secured by state law.
Any claim resting on an “ongoing violation” is not one of federal law, but of
state law. Just as the Supreme Court concluded in Pennhurst and the Fourth
Circuit in Bragg, “a State’s sovereign dignity reserves to its own institutions
the task of keeping its officers in line with [state] law.” Bragg v. West Virginia
Coal Ass’n., 248 F.3d 275, 297 (4th Cir. 2001); see Pennhurst, 456 U.S. at 106,
104 S. Ct. at 911.

In a similar vein, two sister circuits concluded that pursuant to Pennhurst and
fundamental Federalism principles, lawsuits challenging states’ regulation of mining
practices that were established under a federal environmental statute did not fall within the
Ex parte Young exception. Bragg v. West Va. Coal Ass’n., 248 F.3d 275, 298 (4th Cir. 2001);
Pennsylvania Federation Sportsmen’s Club v. Hess, 297 F.3d 310, 330 (3d Cir. 2002). As the
Bragg court held, where the federal statute did not incorporate state law, and intended to
craft a floor for state regulation, “any injunction against State officials to enforce this
provision would command them to comport with the State’s own law[.]” 248 F.3d at 295–96.
5

Case: 19-60069

B.

Document: 00515663554

Page: 12

Date Filed: 12/07/2020

31a

No Readmission Act Implied Right of Action.

Because state sovereign immunity, as interpreted by the Supreme Court,
confers immunity from suit, not just liability, 6 this court has the discretion to
consider whether the Readmission Act creates a private right of action.
Singleton v. Wulff, 428 U.S. 106, 121, 96 S. Ct. 2868, 2877 (1976). Consistent
with principles of federalism, we should have decided this important and
intertwined question of law to avert the state’s continued subjection to this
litigation.

No claim can be brought under Ex parte Young unless the

Readmission Act can be enforced by private parties. That any such implied
cause of action exists is, however, untenable.
The problem here is straightforward:

“[P]rivate rights of action to

enforce federal law must be created by Congress,” Alexander v. Sandoval,
532 U.S. 275, 286 121 S. Ct. 1511, 1519 (2001) (citation omitted), and the
readmission acts did not create such a right or even impose federal statutory
obligations on States. The readmission acts simply offered the states a choice
to comply with certain congressional conditions or run the risk that their
representatives will not be seated. That much is obvious from the text and
structure of the Readmission Act.

It was passed “to admit the State of

Mississippi to Representation in the Congress of the United States” upon
certain conditions. 16 Stat. 67 (1870).

The Act explicitly describes “the

performance of these several acts” as a “condition precedent to the
representation of the State in Congress.” Id. Later in the Act, it explicitly

Federal Maritime Com'n v. South Carolina State Ports, 535 U.S. 743, 766
122 S. Ct. 1864, 1877 (2002) (“Sovereign immunity does not merely constitute a defense to
monetary liability or even to all types of liability. Rather, it provides an immunity from
suit.”); see Alden v. Maine, 527 U.S. 706, 731, 119 S. Ct. 2240, 2246–47 (1999) (“[A]s the
Constitution's structure, its history, and the authoritative interpretations by this Court make
clear, the States' immunity from suit is a fundamental aspect of the sovereignty which the
States enjoyed before the ratification of the Constitution, and which they retain today . . . .”);
Pennhurst, 465 U.S. at 100, 104 S. Ct. at 908 (“This Court's decisions thus establish that an
unconsenting State is immune from suits brought in federal courts by her own citizens as
well as by citizens of another state.” (quotation and citation omitted)).
6

Case: 19-60069

Document: 00515663554

Page: 13

Date Filed: 12/07/2020

32a

qualifies Mississippi’s admittance “to representation in Congress” upon three
“fundamental conditions,” one of which is the school rights and privileges
condition at issue here. 7 Id. at 68. In short, the Readmission Act does not
create a private right of action, express or implied.

Thus, even assuming

arguendo that Mississippi’s current education clause does not comport with the
“fundamental conditions” of the Mississippi Readmission Act, all that can be
said is that Mississippi has chosen to run the risk that its representatives may
be unseated by Congress.
Finding an implied private right of action based on the language of the
Readmission Act would depart drastically from decisions of the Supreme Court
and this court’s recent en banc decision in Planned Parenthood v. Kauffman,
No. 17-50282, 2020 WL 6867212 (5th Cir. Nov. 23, 2020). The Readmission
Act states that as a condition of readmitting the state’s representatives to
Congress, the “constitution of Mississippi shall never be [] amended” to deprive
any citizen or class of citizens of “school rights and privileges secured by the
[state’s] constitution.” 16 Stat. 67, 68 (1870). The Act simply does not confer
judicially enforceable personal “rights.” Instead, the Act instructs Mississippi
as to what it shall not do. The Act’s only enforcement mechanism lies in direct
recourse to Congress.
As our en banc court recently recognized, where “the text and structure
of a statute provide no indication that Congress intends to create new
individual rights, there is no basis for a private suit, whether under § 1983 or
under an implied right of action.”

Kauffman, 2020 WL 6867212, at *7

The other two conditions are that (1) “the constitution of Mississippi shall never be
so amended or changed as to deprive any citizen or class of citizens of the United States of
the right to vote” except with respect to certain felonies and prospective changes concerning
“the time and place of residence of voters,” and (2) that “it shall never be lawful for the said
State to deprive any citizen of the United States, on account of his race, color, or previous
condition of servitude, of the right to hold office under the constitution and laws of said State,
or upon any such ground to require of him any other qualifications for office than such as are
required of all other citizens.” 16 Stat. 67, 68 (1870).
7

Case: 19-60069

Document: 00515663554

Page: 14

Date Filed: 12/07/2020

33a

(quoting Gonzaga University v. Doe, 536 U.S. 273, 286 (2002)). Furthermore,
the Supreme Court has made clear that “to seek redress through § 1983, . . . a
plaintiff must assert the violation of a federal right, not merely a violation of
federal law.” 8

Id. at *17 (quoting Gonzaga, 536 U.S. at 282, 122 S. Ct. at

2274) (emphasis and alteration in original). It is not enough for plaintiffs to
argue that Mississippi violated the Readmission Act—violation of that federal
law does not create a private right to sue.
The Supreme Court has been clear that it will not find an unenumerated
right of action unless the text and structure of a statute show an unambiguous
intent to create one. Gonzaga, 536 U.S. at 283, 122 S. Ct. at 2275 (“We now
reject the notion that our cases permit anything short of an unambiguously
conferred right to support a cause of action brought under § 1983.”); see
Armstrong

v.

Exceptional

Child

Center,

Inc.,

575 U.S. 320,

332,

135 S. Ct. 1378, 1387–88 (2015) (plurality op.) (same); Kauffman, 2020 WL
6867212, at *7 (same). This should end the analysis. There is nothing in the
text, structure, or history

9

of the Readmission Act that suggests any

congressional intent to create a private right of action—much less an
unambiguous one.
Even if the factors in Wilder and Blessing are still good law post-Gonzaga
and Armstrong, the result is the same. 10 That test asks whether Congress
The plaintiffs brought their claim under § 1983.
There is no doubt that Congress did not intend for the Readmission Act to provide a
private right of suit through § 1983 when it was adopted for the obvious reason that the
Readmission Act was enacted before Congress adopted § 1983 as part of the Civil Rights Act.
See Civil Rights Act of 1871, ch. 22, 17 Stat. 13. Originally, § 1983 only provided a remedy
for rights secured by the U.S. Constitution. It was not until after the language was amended
and the Supreme Court clarified its scope in the mid-to-late 1900s that federal statutes could
confer rights enforceable by § 1983.
See Maine v. Thiboutot, 448 U.S. 1, 4–8,
100 S. Ct. 2504–2506 (1980) (describing the legislative history and confirming that the term
“and laws” in § 1983 “means what it says”).
10 The Supreme Court has made clear that at least some aspects of these cases are
not good law. As this court recently observed, the Supreme Court in Armstrong and
Gonzaga “repudiate[d]” and “disavowed, in part, its decision in Wilder” “that [its] cases
permit anything short of an unambiguously conferred right to support a cause of action
8
9

Case: 19-60069

Document: 00515663554

Page: 15

Date Filed: 12/07/2020

34a

intended a statutory provision to benefit the plaintiff; whether the “right” is
not so vague or amorphous as to strain judicial competence; and whether the
provision giving rise to the “right” is mandatory rather than precatory.
Blessing v. Freestone, 520 U.S. 329, 341–42, 117 S. Ct. 1353, 1359 (1997).
Even if we accept that the phrase “school rights and privileges” confers some
educational right on these plaintiffs, the latter two inquiries are unavailing for
the plaintiffs.
Regarding the second Blessing factor, with or without considering
“uniformity,” the concept of “school rights and privileges” is outside of judicial
competence and far beyond what a federal court should be telling states to do.
The Readmission Act, for its part, does not provide any guidance on the term
“school rights and privileges” or provide objective benchmarks for evaluating
such rights.

Making such determinations on its own is well beyond the

provenance of the federal judiciary. This is especially true considering the
Supreme Court’s refusal, under the comparatively more precise Equal
Protection Clause, to adjudicate school children’s rights to “equal funding” of
public education. San Antonio Indep. Sch. Dist. v. Rodriguez, 411 U.S. 1, 40–
43, 93 S. Ct. 1278, 1300–02 (1973).

The Court eloquently explained that

judicial restraint was required in the face of challenging issues of fiscal policy
with which judges lack familiarity and competence.

In addition to fiscal

matters, the Court noted, “this case also involves the most persistent and
difficult questions of educational policy, another area in which this Court’s lack
of specialized knowledge and experience counsels against premature
interference with the informed judgments made at the state and local levels.”

brought under § 1983.” Kauffman, 2020 WL 6867212, at *7–8 (quoting Gonzaga, 536 U.S.
at 283, 122 S. Ct. at 2275 and Armstrong, 535 U.S. at 330, 135 S. Ct. at 1386); see id. at *19
(Elrod, J. concurring) (rejecting the argument that Gonzaga and Armstrong merely clarified
one of the Wilder/Blessing factors because it “ignores Armstrong’s recognition—one made by
a majority of the Court, not just a plurality—that Gonzaga ‘plainly repudiate[d]’ Wilder”
(alterations in original)).

Case: 19-60069

Document: 00515663554

Page: 16

Date Filed: 12/07/2020

35a

Id. Since funding is the likely endgame of this litigation, we should be bound
by that case to acknowledge the strain on judicial competence were plaintiffs
to prevail.
Not only are any “rights” granted by the Readmission Act too vague and
amorphous for judicial resolution, but the statute’s language is not
“mandatory” toward any goal and thus fails the third Blessing factor. The Act
places conditions on Mississippi that are enforced through congressional
action, but in no way does it contemplate granting plaintiffs a right enforceable
against the state. 11 And as previously explained, if we view the statute from
the perspective of the Gonzaga/Armstrong framework, there is little doubt
Congress did not “unambiguously” confer judicially enforceable rights on the
plaintiffs.
In short, the plaintiffs’ case is doomed irrespective of constitutional
sovereign immunity because they are not empowered to enforce the
Readmission Act. For this additional reason, we may not subject the State to
further litigation and travail.

The panel decision is an affront to the

principles of Federalism embodied in Pennhurst. I respectfully dissent from
the court’s denial of en banc rehearing.

We would not be the only court to reach this conclusion with respect to interpreting
one of the readmission acts. For example, a panel interpreting the act “admitting Virginia
to representation in Congress” reasoned as follows: “It is extremely doubtful, even if
Virginia has violated the conditions of this Act . . . whether this presents a question
justiciable in the courts. Such a matter is one peculiarly within the domain of Congress itself,
since it only purports to set up a condition governing Virginia's right to admission to
representation in Congress.” Butler v. Thompson, 97 F. Supp. 17, 20 (E.D. Va. 1951).
11

Case: 19-60069

Document: 00515672457

Page: 1

Date Filed: 12/14/2020

APPENDIX C

United States Court of Appeals
for the Fifth Circuit
___________
No. 19-60069
___________
INDIGO WILLIAMS, on behalf of her minor child J.E.;
DOROTHY HAYMER, on behalf of her minor child, D.S.;
PRECIOUS HUGHES, on behalf of her minor child, A.H.;
SARDE GRAHAM, on behalf of her minor child, S.T.,
Plaintiffs—Appellants,
versus
TATE REEVES, in his official capacity as Governor of
Mississippi; PHILIP GUNN, in his official capacity as
Speaker of the Mississippi House of Representatives;
TATE REEVES, in his official capacity as Lieutenant
Governor of Mississippi; DELBERT HOSEMANN, in his
official capacity as Secretary of State of Mississippi;
CAREY M. WRIGHT, in her official capacity as State
Superintendent of Education and Executive Secretary
of MS State Board of Education; ROSEMARY
AULTMAN, in her official capacity as Chair of the
Mississippi State Board of Education; JASON DEAN, in
his official capacity as Member of the Mississippi State
Board of Education; BUDDY BAILEY, in his official
capacity as Member of the Mississippi State Board of
Education; KAMI BUMGARNER, in her official capacity
as Member of the Mississippi State Board of Education;
KAREN ELAM, in her official capacity as Member of the
Mississippi State Board of Education; JOHNNY
FRANKLIN, in his official capacity as Member of the
Mississippi State Board of Education; WILLIAM
HAROLD JONES, in his official capacity as Member of

(36a)

Case: 19-60069

Document: 00515672457

Page: 2

Date Filed: 12/14/2020

37a

the Mississippi State Board of Education; JOHN KELLY,
in his official capacity as Member of the Mississippi
State Board of Education; CHARLES MCCLELLAND, in
his official capacity as Member of the Mississippi State
Board of Education,
Defendants—Appellees.
______________________________
Appeal from the United States District Court
for the Southern District of Mississippi
USDC No. 3:17-CV-404
______________________________
ORDER:
( )

The motion of appellees for a further stay of issuance of the mandate
is GRANTED to and including ________________ , under the
same conditions as set forth in the preceding order of this court.

(X)

The motion of appellees for a further stay of issuance of the mandate
is DENIED.
___________________________
Stephen A. Higginson
United States Circuit Judge

Case: 19-60069

Document: 00515696930

Page: 1

Date Filed: 01/06/2021

APPENDIX D

United States Court of Appeals
for the Fifth Circuit
___________
No. 19-60069
___________
Indigo Williams, on behalf of her minor child J.E.; Dorothy
Haymer, on behalf of her minor child, D.S.; Precious
Hughes, on behalf of her minor child, A.H.; Sarde Graham,
on behalf of her minor child, S.T.,
Plaintiffs—Appellants,
versus
Tate Reeves, in his official capacity as Governor of
Mississippi; Philip Gunn, in his official capacity as
Speaker of the Mississippi House of Representatives;
Tate Reeves, in his official capacity as Lieutenant
Governor of Mississippi; Delbert Hosemann, in his
official capacity as Secretary of State of Mississippi;
Carey M. Wright, in her official capacity as State
Superintendent of Education and Executive Secretary
of MS State Board of Education; Rosemary Aultman, in
her official capacity as Chair of the Mississippi State
Board of Education; Jason Dean, in his official
capacity as Member of the Mississippi State Board of
Education; Buddy Bailey, in his official capacity as
Member of the Mississippi State Board of Education;
Kami Bumgarner, in her official capacity as Member of
the Mississippi State Board of Education; Karen Elam,
in her official capacity as Member of the Mississippi
State Board of Education; Johnny Franklin, in his
official capacity as Member of the Mississippi State
Board of Education; William Harold Jones, in his
official capacity as Member of the Mississippi State

(38a)

Case: 19-60069

Document: 00515696930

Page: 2

Date Filed: 01/06/2021

39a
No. 19-60069

Board of Education; John Kelly, in his official
capacity as Member of the Mississippi State Board of
Education; Charles Mcclelland, in his official
capacity as Member of the Mississippi State Board of
Education,
Defendants—Appellees.
______________________________
Appeal from the United States District Court
for the Southern District of Mississippi
USDC No. 3:17-CV-404
______________________________
Before Jolly, Graves, and Higginson, Circuit Judges.
Per Curiam:
A member of this panel previously DENIED Appellees’ motion to
stay issuance of the mandate. The panel has considered Appellees’ opposed
motion for reconsideration.
IT IS ORDERED that the motion is DENIED.

2

